                  AUDIT OF THE

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

   2009 COPS HIRING RECOVERY PROGRAM GRANT

  AWARDED TO THE OAKLAND COMMUNITY COLLEGE 

          DEPARTMENT OF PUBLIC SAFETY

               PONTIAC, MICHIGAN




           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division



           Audit Report GR-50-12-007

                   July 2012

                  AUDIT OF THE

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

   2009 COPS HIRING RECOVERY PROGRAM GRANT

  AWARDED TO THE OAKLAND COMMUNITY COLLEGE 

          DEPARTMENT OF PUBLIC SAFETY

               PONTIAC, MICHIGAN



                       EXECUTIVE SUMMARY


      The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS) Hiring
Recovery Program (CHRP) grant number 2009-RK-WX-0454 in the amount
of $204,468 awarded to the Oakland Community College (OCC),
Department of Public Safety. The CHRP grants were designed to provide
funding directly to agencies having primary law enforcement authority to
create and preserve jobs and to increase their community policing
capacity and crime-prevention efforts. The grants were to provide
100 percent funding for approved entry-level salaries and fringe benefits
for 3 years for newly hired, full-time sworn officers (including filling
existing unfunded vacancies), or to rehire officers who have been laid off
or are scheduled to be laid off on a future date as a result of local budget
cuts. The CHRP program was part of the American Recovery and
Reinvestment Act (Recovery Act), which was a direct response to the
economic crisis and had three immediate goals: (1) create new jobs and
save existing ones, (2) spur economic activity and invest in long–term
growth, and (3) foster unprecedented levels of accountability and
transparency in government spending. One of the ways the Recovery Act
intended to achieve those goals was by making additional funds available
for federal contracts, grants, and loans.

      The OCC Department of Public Safety is located in Pontiac, Michigan,
approximately 48 miles north of Detroit. Its staff of 25 sworn law
enforcement officers provides police services to five OCC campuses and
two business office locations in Auburn Hills, Bloomfield Hills, Farmington
Hills, Pontiac, Royal Oak, Southfield, and Waterford, Michigan. According
to the application, the state of Michigan declared that the grantee is
located in an economically or financially distressed area. The purpose of
the grant was to provide the OCC’s Department of Public Safety with
funding for one new officer for 3 years.
     The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable; supported; and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant; and to determine program performance and
accomplishments. We also reviewed the accuracy of information the
grantee provided in the grant application. The objective of our audit was
to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) grant expenditures, including personnel
costs; (4) budget management and control; (5) matching funds;
(6) property management; (7) indirect costs; (8) program income;
(9) federal financial, progress, and Recovery Act reports; (10) grant
requirements, including those related to community policing, supplanting,
and retention; (11) program performance and accomplishments; and
(12) monitoring of subgrantees and contractors. We determined that
matching funds, property management, indirect costs, program income,
and monitoring of subgrantees and contractors were not applicable to this
grant.

     As of March 31, 2012, the grantee had drawn down $109,654 and
recorded expenditures of $126,079 in its grant accounting records. Based
on interviews and our examination of OCC’s grant accounting records,
required reports, and operating policies and procedures, we found:

    •	     The expenditures for payroll and fringe benefits were properly
           authorized, classified, and adequately supported.

    •	     OCC grant drawdowns were supported and grant expenditures
           appropriately exceeded grant drawdowns.

    •	     The progress reports and Recovery Act reports were generally
           submitted in a timely manner and accurately reflected hiring
           data.

    •	     OCC Public Safety Department personnel were actively engaged
           in numerous community policing activities that involved both
           students and staff.

    •	     There was no indication that OCC used federal funds to
           supplant existing funds.

     However, we identified several internal control deficiencies, as well as
errors in the information provided in the grant application. Our audit
revealed the following:


                                    -   ii ­
       •	     We reviewed 100 percent of the information provided in the
              grant application and were able to trace the information to
              source documentation in all but three instances. Specifically,
              the grantee reported higher numbers for fiscal year 2009
              jurisdictional revenue and we identified differences in the
              unemployment rates for 2008 and 2009. In addition, the OCC
              Director of Public Safety stated he was unable to obtain
              documentation from the city of Pontiac to substantiate the
              percentage of sworn officers reported laid off.

       •	     We observed that while the OCC used the Uniform Crime
              Reporting (UCR) crime statistics for the city of Pontiac,
              Michigan, in its grant application, OCC’s own UCR crime
              statistics as well as those published on OCC’s public website
              were significantly lower. The OCC Director of Public Safety
              stated that he had requested assistance from the COPS Office
              on completing this part of the application. While the Director
              did not recall who he talked to, he stated that he was advised
              he could report the crime statistics for the city of Pontiac or
              Oakland County. COPS Office officials stated that while they
              could neither confirm nor deny that OCC received guidance
              regarding application statistical content, such guidance would
              have been contrary to its instructions. Additionally, the COPS
              Office officials stated that they were not aware of any other
              educational CHRP grantee that was instructed it was
              permissible to use UCR statistics for the city in which it was
              located rather than its own recorded information.

              During a previous OIG audit, we asked the COPS Office for an
              assessment regarding the potential impact any overstatement
              of the number of crimes would have had on applicant scores
              and chances of being awarded a CHRP grant. 1 At that time,
              COPS officials reported that possibly inflated statistics likely had
              a significant impact on the evaluation and scoring of the
              application. As a result of that audit, the COPS Office stated it
              had developed separate queries for subsequent grant programs
              to ensure that law enforcement agencies for educational
              institutions are actually reporting crime on campus and not
              crime in the surrounding city jurisdiction.




       1
          U.S. Department of Justice Office of the Inspector General, A Review of the Grantee
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25 (May 2010).

                                            -   iii ­
          During this audit, we reran the grantee-specific crime-related
          and other application data against the COPS Office’s formula for
          making awards and determined that if OCC had used that data
          it would not have met the threshold for receipt of a CHRP grant
          at the time the $204,468 award was made. However, because
          it is not clear whether the grantee received inaccurate guidance
          from the COPS Office regarding what statistics to report, we are
          not questioning the cost of this grant award.

    •	    No alternate staff had been identified to ensure compliance with
          grant requirements and timely submission of grant reports if
          the grant manager or accountant was unavailable for an
          extended period of time. Subsequent to our review, the
          grantee informed us that back-up personnel were assigned to
          these positions.

    •	    Although all Federal Financial Reports (FFR) were submitted in
          a timely manner, the initial FFRs filed included officer salary
          and fringe benefit costs incurred during the quarter as shown in
          the overall college payroll records rather than the grant-specific
          accounting ledgers.

    •	    The 2009 COPS Hiring Recovery Program Grant Owner’s Manual
          states the grantee will ensure that the increased officer staffing
          level under the grant continues with state or local funds for a
          minimum of 12 months after the federal funding ends. Due to
          vacancy periods caused by turnover in the COPS funded
          position, OCC would not have spent at least $44,199 when the
          grant was originally scheduled to end on June 30, 2012. OCC
          officials incorrectly believed that they would be able to utilize
          these funds after the grant end date to continue paying the
          COPS officer’s salary, and that this time would count toward the
          12-month retention period. As a result of our review, the OCC
          Director of Public Safety obtained a no-cost grant extension of
          time through December 31, 2013, to utilize these funds prior to
          the start of the retention period.

     Our report contains five recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objective, scope, and methodology are
discussed in Appendix I.




                                   -   iv ­
                               TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1

     Background.......................................................................... 2

     Our Audit Approach............................................................... 3

FINDINGS AND RECOMMENDATIONS........................................ 4

     Application Information ......................................................... 4

     Accounting and Internal Control Environment ........................... 7

          Financial Management System.......................................... 8

          Single Audit.................................................................... 9

     Drawdowns .......................................................................... 9

     Budget Management and Control ...........................................10

     Grant Expenditures ..............................................................11

     Grant Reporting ...................................................................12

          Federal Financial Reports ................................................12

          Program Progress Reports ...............................................13

          Recovery Act Reports .....................................................14

     Compliance with Grant Requirements .....................................15

          Community Policing........................................................15

          Supplanting...................................................................15

          Retention ......................................................................16

     Program Performance and Accomplishments ...........................16

     View of Responsible Officials .................................................16

     Recommendations ...............................................................17

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ......... 18

APPENDIX II: AUDITEE RESPONSE ........................................ 20

APPENDIX III: U.S. DEPARTMENT OF JUSTICE RESPONSE..... 23

APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL

   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO 

   CLOSE THE REPORT........................................................... 26

                             INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS) Hiring
Recovery Program (CHRP) grant number 2009-RK-WX-0454 in the amount
of $204,468 awarded to the Oakland Community College (OCC),
Department of Public Safety. The CHRP grants were designed to provide
funding directly to agencies having primary law enforcement authority to
create and preserve jobs and to increase their community policing capacity
and crime-prevention efforts. The grants were to provide 100 percent
funding for approved entry-level salaries and fringe benefits for 3 years for
newly hired, full-time sworn officers (including filling existing unfunded
vacancies), or to rehire officers who have been laid off or are scheduled to
be laid off on a future date as a result of local budget cuts. The CHRP
program was part of the American Recovery and Reinvestment Act
(Recovery Act), which was a direct response to the economic crisis and had
three immediate goals: (1) create new jobs and save existing ones,
(2) spur economic activity and invest in long–term growth, and (3) foster
unprecedented levels of accountability and transparency in government
spending. One of the ways the Recovery Act intended to achieve those
goals was by making additional funds available for federal contracts,
grants, and loans.

       The OCC Department of Public Safety is located in Pontiac, Michigan,
approximately 48 miles north of Detroit. Its staff of 25 sworn law
enforcement officers provides police services to five campus and two
business office locations in Auburn Hills, Bloomfield Hills, Farmington Hills,
Pontiac, Royal Oak, Southfield, and Waterford, Michigan. According to the
application, the state of Michigan declared that the grantee is located in an
economically or financially distressed area. The purpose of the grant was
to provide the OCC’s Department of Public Safety with funding for one new
officer for 3 years. Prior to the grant award, the OCC did not have 24-hour
law enforcement coverage on any of its five campuses. This grant was
provided to allow OCC to begin to mitigate that situation by enabling it to
now provide 24-hour service on 2 of its 5 campuses.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable; supported; and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant; and to determine program performance and
accomplishments. We also reviewed the accuracy of information the
grantee provided in the grant application. The objective of our audit was to
review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) grant expenditures, including personnel
costs; (4) budget management and control; (5) matching funds;
(6) property management; (7) indirect costs; (8) program income;
(9) federal financial, progress, and Recovery Act reports; (10) grant
requirements, including those related to community policing, supplanting,
and retention; (11) program performance and accomplishments; and
(12) monitoring of subgrantees and contractors. We determined that
matching funds, property management, indirect costs, program income,
and monitoring of subgrantees, and contractors were not applicable to this
grant. As shown in Table 1, the OCC Department of Public Safety was
given a total of $204,468 in federal funds for this grant.

          TABLE 1 - CHRP GRANT AWARDED TO THE OCC

                DEPARTMENT OF PUBLIC SAFETY

                        AWARD       AWARD
    GRANT AWARD                               AWARD AMOUNT
                      START DATE   END DATE
  2009-RK-WX-0454     07/01/2009  6/30/2012     $204,468
                                                 Total:        $204,468
Source: COPS

Background

      OCC was opened in 1965 and is the largest of Michigan’s
28 community colleges with 77,136 students enrolled across its five
campuses for calendar year 2009. The stated mission of the OCC
Department of Public Safety is to provide protection and quality service to
the college community and continually strive to maintain a healthy and safe
environment for students, staff, and visitors. Services range from vehicle
lockout assistance to responding to incidents such as environmental issues,
suspicious situations, and complaints of disorderly conduct. Other services
include community policing, parking enforcement, escort, and patrol.

       The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the country.
Community policing represents a shift from more traditional law enforcement
in that it focuses on the prevention of crime and the fear of crime on a local
basis. Community policing puts law enforcement professionals on the
streets and assigns them to a beat so they can build mutually beneficial
relationships with the people they serve. COPS does its work principally by
sharing information and making grants to police departments around the
United States.


                                     -2 ­
       In February 2009, Congress enacted the American Recovery and
Reinvestment Act of 2009 (Recovery Act) to provide a $787 billion stimulus
to the economy. One of the goals of the Recovery Act is to preserve and
create jobs. The Department received $4 billion of Recovery Act funds to
enhance state, local, and tribal law enforcement efforts, of which $1 billion
went to COPS for a grant program to hire and retain career law enforcement
officers.

      Soon after the enactment of the Recovery Act, COPS began collecting
applications for grant funding. Between March 16, 2009, and April 14, 2009,
COPS collected applications from more than 7,000 law enforcement agencies
from around the country and U.S. territories. These agencies requested
about 39,000 officer positions totaling more than $8.3 billion, or more than
8 times the available Recovery Act funding. On July 28, 2009, COPS
announced the selection of the 1,046 grantees (approximately 14 percent of
the total applicants), funding 4,699 officer positions.

Our Audit Approach

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our report,
the criteria we audit against are contained in the 2009 COPS Hiring
Recovery Program Grant Owner’s Manual and the grant award documents.

       In conducting our audit, we performed sample testing in the areas of:
(1) drawdowns and (2) grant expenditures. In addition, we reviewed the
timeliness and accuracy of federal financial reports (FFRs), progress
reports, and Recovery Act reports; evaluated performance to grant
objectives; reviewed internal controls related to the financial management
system; and reviewed the accuracy of information the grantee provided in
its grant application. We also performed limited work and confirmed that
OCC did not purchase accountable property, receive reimbursement for
indirect costs, did not generate or receive program income, was not
required to contribute any local matching funds, and that funds were not
awarded to sub-grantees or contractors. We therefore performed no
testing in these areas. Our audit objectives, scope, and methodology are
discussed in Appendix I.




                                    -3 ­
               FINDINGS AND RECOMMENDATIONS

      We found that OCC’s internal control environment included an
      adequate separation of duties, transactions were supported, and
      access to accounting systems was limited. However, certain
      information in the grant application was incorrect or could not be
      substantiated. Specifically, the crime statistics and financial
      information reported in the grant application were those for the city
      of Pontiac and not the OCC. The COPS Office used these statistics as
      a basis for awarding the grant. In addition, our audit revealed
      instances of weak internal controls with regard to COPS grant
      management. These included not: (a) formally assigning alternate
      personnel for periods when the grant manager and accountant might
      be unavailable for an extended period of time, (b) providing fraud
      training to staff, and (c) establishing procedures for reporting fraud.
      Further, while the Recovery Act and quarterly progress reports were
      accurate and submitted in a timely manner, the initial progress
      report, which was due January 30, 2010, was filed 3 days late. We
      also noted that although the FFRs were submitted in a timely
      manner, the initial FFRs included officer salary and fringe benefit
      costs that had not been posted to the grant accounting ledgers at
      that time. Finally, due to turnover in the COPS position, and
      resultant periods of vacancy, without an extension of time, the OCC
      would not have spent at least $44,199 during the original award
      period ending June 30, 2012.

      We performed audit work at the OCC’s Department of Public Safety
located in Pontiac, Michigan, and the Finance Department located in
Bloomfield Hills, Michigan, where we obtained an understanding of the
accounting system and reviewed a sample of grant expenditures. We
reviewed the criteria governing grant activities, including the 2009 COPS
Hiring Recovery Program Grant Owner’s Manual, and relevant OMB Circulars
and the Code of Federal Regulations. In addition, we reviewed grant
documents, including the application, award, budgets, as well as financial,
progress, and Recovery Act reports. We also interviewed key OCC
personnel.

Application Information

      COPS established eligibility standards for CHRP applicants and
completed routine COPS vetting procedures on all applicants and contacted
all DOJ offices for any information they had indicating that awarding a grant



                                     -4 ­
to a particular agency may be inadvisable. 2 In addition, COPS developed
and implemented an objective, data-driven methodology for scoring and
ranking applicants and announced the decisions to CHRP grantees within
6 months after the Recovery Act was enacted. Generally speaking, the
CHRP scoring process was designed to favor applicants in poorer economic
areas with high rates of crime and more developed community policing
plans. However, COPS recognized that a capping system that would limit
the size of an award would distribute officers to more jurisdictions.

       Based on interviews with OCC staff and our testing, we determined
that general community statistics were obtained from state and federal
websites and all other information, including financial information, crime
statistics and percent of sworn officers laid off, were those of the city of
Pontiac, Michigan. We also determined that the city of Pontiac, where the
OCC Department of Public Safety is headquartered and Bloomfield Hills,
where the OCC Finance Offices are located are all located in Oakland
County, Michigan. We also confirmed that community policing activities
detailed in the application related specifically to the OCC Public Safety
Department and not to the city of Pontiac.

      We reviewed 100 percent of the information provided in the grant
application detailing the need for federal assistance and were able to trace
the information to source documentation in all but three instances.
Specifically, in the grant application the grantee reported that:

       •	     Its FY 2009 locally generated jurisdictional revenue was
              $59,092,921. However, the source documents provided by the
              OCC Finance Department from the City of Pontiac’s website
              indicated that locally generated revenue was $29,678,651;

       •	     The unemployment rates for January 2008 and January 2009
              were 6.6 percent and 10.3 percent, respectively. However, the
              source documents from the Bureau of Labor Statistics were
              6.5 percent and 10.7 percent, respectively, for Oakland County,
              and those for the city of Pontiac showed 17.1 percent and
              26.2 percent, respectively; and

       •	     Twenty-six percent of sworn law enforcement personnel were
              laid off. The OCC Director of Public Safety stated this number
              was given to him by the city of Pontiac. In response to our

       2
          These Department offices included the U.S. Attorneys’ Offices, the Civil Rights
Division, the OIG Investigations Division, the OJP Office of Civil Rights, the DOJ Public
Integrity Section, and the Criminal Division.


                                             -5 ­
            request, he stated he followed up with the city to
            obtain documentation to verify this statistic but did not receive
            a response and therefore could not provide support for this
            statistic. Consequently, the accuracy of the information could
            not be substantiated. He also confirmed that the OCC had not
            laid off any officers during FYs 2008 or 2009.

      In addition, as previously noted, the OCC generally reported financial
and statistical data for the city of Pontiac. We noted that the 23 percent
poverty rate reported in the application was supported by census bureau
data for the city of Pontiac. However, OCC’s student campuses were all
located in the surrounding suburbs and census bureau data showed that the
poverty rate for Oakland County was 5 percent.

      Our review of the crime statistics reported in the grant application
also revealed discrepancies. While the main office of the OCC Department
of Public Safety is located in Pontiac, Michigan, all OCC campus locations
and the OCC Finance Department are located in surrounding communities.
The OCC Director of Public Safety stated that he called the COPS Helpline
and was verbally informed by COPS that he could use the crime statistics
reported by the city of Pontiac or those of Oakland County in the grant
application. However, the Director could provide no documentation
confirming these directions, nor recall to whom he spoke when he called
COPS for assistance in filling out the grant application. The OCC Director of
Public Safety further explained that in conjunction with the OCC’s in-house
grant supervisor, it was decided to use the statistics for the city of Pontiac.
COPS Office officials stated that while they could neither confirm nor deny
that OCC received guidance regarding application statistical content, such
guidance would have been contrary to its instructions. Additionally, the
COPS officials stated that they were not aware of any other educational
CHRP grantee that was instructed it was permissible to use Uniform Crime
Reporting (UCR) statistics for the city in which it was located rather than its
own recorded information.

       As shown in Table 2, we observed that the OCC’s campus UCR crime
statistics reported to the FBI, as well as those published on OCC’s public
website were significantly lower than those for the city of Pontiac, Michigan,
which were used in its grant application.




                                      -6 ­
 TABLE 2 – COMPARISON OF CY 2008 UNIFORM CRIME STATISTICS

                          CITY OF PONTIAC AND

                OCC DEPARTMENT OF PUBLIC SAFETY

                                                          OCC’s UCR data
         Type of Crime            City of Pontiac
                                                         on FBI’s Website
     criminal homicide                     21                    0
     forcible rape                        127                   23
     robbery                              371                    1
     aggravated assault                  1306                    0
     burglary                            1335                    1
     larceny                              505                   56
     motor vehicle theft                  556                    2
       Source: OCC’s grant application and FBI’s public website

       During a previous OIG audit, we asked the COPS Office for an
assessment regarding the potential impact any overstatement of the number
of crimes would have had on applicant scores and chances of being awarded
a CHRP grant. 4 At that time, COPS officials reported that possibly inflated
statistics likely had a significant impact on the evaluation and scoring of the
application. As a result of that audit, the COPS Office stated it had
developed separate queries for subsequent grant programs to ensure that
law enforcement agencies for educational institutions are actually reporting
crime on campus and not crime in the surrounding city jurisdiction.

       We believe that OCC should have completed the application using its
own information and data. During this audit, we reran the grantee-specific
crime and other application data against the COPS Office’s formula for
making awards and determined that if OCC had used that data it would not
have met the threshold for receipt of a CHRP grant at the time the
$204,468 award was made. However, because it is not clear whether the
grantee received inaccurate guidance from the COPS Office on what
statistics to report, we are not questioning the cost of this grant award.

Accounting and Internal Control Environment

      We reviewed the OCC’s financial management system, and its policies
and procedures to assess its risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grant. To further assess risk,
we obtained an understanding of the reporting process, examined grant
       3
         Although no rapes were reflected in the FBI UCR data, OCC’s own public website
reported 2 forcible rapes. We have included that information herein as an official statistic.
       4
          U.S. Department of Justice Office of the Inspector General, A Review of the Grantee
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25 (May 2010).

                                             -7 ­
records and reports prepared by OCC, and interviewed OCC personnel
regarding award charges. Our testing revealed internal control, accounting,
and reporting deficiencies, as well as errors in reported application statistics
and financial information that are explained in more detail in the following
sections.

Financial Management System

      The OCC Department of Public Safety maintains its accounting
records in an automated system. Based on our review of the financial
management system and interviews with both college and public safety
department personnel, we found that OCC’s internal control environment
included an adequate separation of duties, and access to accounting
systems was limited. However, we identified several weaknesses that
could be addressed to provide better internal controls and would be good
business practices. These included:

      •	    No alternate staff had been identified to ensure compliance with
            grant requirements and timely submission of grant reports if
            the grant manager or accountant was unavailable for an
            extended period of time. Subsequent to our review, the
            grantee informed us that back-up personnel were assigned to
            these positions.

            During the exit conference, an OCC official stated that there
            was no formally assigned back-up person for any of the OCC
            Finance Department positions because of the small number of
            staff and that it had always been unofficially understood that
            the supervisor would fulfill staff responsibilities in the event of
            an extended absence. In response to our review, the grantee
            provided the name of the specific supervisor who would
            function as the back-up person.

      •	    No fraud training had been completed by staff of OCC involved
            with accounting transactions for the grant. Additionally, no
            procedures had been established to report suspected fraud to
            upper management.

      Although procedures specific to these areas of weakness are not
required by the grant award, we believe that OCC can strengthen its
internal control environment by addressing these issues.




                                      -8 ­
Single Audit

       The OCC Department of Public Safety is a department within the OCC,
which was included in a college-wide bi-annual audit conducted by an
independent accounting firm for the fiscal years ended June 30, 2009, and
2010. The results of this audit were reported in the Single Audit Report
accompanying the overall audit report. The Single Audit Report was
prepared in compliance with Government Auditing Standards issued by the
Comptroller General of the United States and under the provisions of Office
of Management and Budget Circular A-133, which requires non-federal
entities that expend $500,000 or more in federal awards in a year to have a
single audit conducted. We reviewed the independent auditor’s
assessments, which disclosed no weaknesses, noncompliance issues, or
cross-cutting findings related to grant management. The OCC Department
of Public Safety management also stated that no other independent annual
financial audit of the OCC Department of Public Safety had been performed.

Drawdowns

      According to the CHRP Grant Owner’s Manual, agencies should
minimize the time between its drawdown of grant funds and its payment of
grant costs to avoid earning excess interest income on grant funds. We
reviewed the OCC Department of Public Safety’s process for requesting
reimbursement for its grant-related costs to ensure that the requests were
adequately supported by official grant accounting records and were in
accordance with federal requirements. Total drawdowns as of March 31,
2012, were $109,654.

       We reviewed the grant accounting records and compared recorded
expenditures to actual drawdowns and found that the initial drawdown
exceeded costs recorded in the grant ledgers by $6,671, as shown in
Table 3. This occurred because the initial payroll costs posted to OCC’s
total college payroll records were not initially posted to the grant’s
accounting records. The OCC Department of Public Safety grant manager
was not the same person responsible for requesting drawdowns or
submitting the grant financial reports and did not review the documents
prior to their submission. A grant official in the OCC Finance Department
stated that drawdowns were based on her knowledge of actual
expenditures. The grantee identified and corrected this error prior to our
review. As a result, we concluded that although the initial costs were not
properly reflected in the grant ledgers in the period in which they occurred,
excess drawdowns had not been taken.



                                     -9 ­
                   TABLE 3 – OCC DEPARTMENT OF PUBLIC SAFETY

                   DRAWDOWNS VERSUS ACCOUNTING RECORDS 5

                                    GRANT
                   AMOUNT                                                                    DIFFERENCE
                                 EXPENDITURES                            CUMULATIVE
 DATE OF           DRAWN­                            CUMULATIVE                               BETWEEN
                                PER ACCOUNTING                          EXPENDITURES
DRAWDOWN            DOWN                             DRAWDOWNS                               CUMULATIVE
                                  RECORDS FOR                           PER ACCOUNTING
PER   COPS           PER                             PER    COPS                            DRAWDOWNS     &
                                  DRAWDOWN                                 RECORDS
                    COPS                                                                    EXPENDITURES
                                    PERIOD

03/11/2010           $ 8,398             $ 1,727           $    8,398         $     1,727        $    6,671
09/16/2010             4,417              23,556               12,816              25,283            -12,467

11/17/2010           14,578               10,886               27,393              36,169             -8,776

03/03/2011           13,630               16,649               41,024              52,817            -11,793

06/01/2011           16,391               16,936               57,415              69,753            -12,338

09/09/2011           16,549               34,126               73,963             103,879            -29,916

10/18/2011           16,048              (8,473)               90,012              95,406             -5,394

01/23/2012           19,642               16,960            109,654               112,366             -2,712

03/31/2012                  0             13,713            109,654               126,079            -16,425
                      TOTAL                             $109,654               $126,079           $-16,425

  Source: COPS and the OCC’s accounting records

  Budget Management and Control

        The grant award total project costs were $204,468 for the salary and
  fringe benefits for one officer. We determined that the OCC Department of
  Public Safety adhered to the grant requirement to spend grant funds within
  the approved budget categories. The grantee has not yet fully expended
  funds for any approved budget category as shown in Table 4.




           5
               Differences of $1 in the total are due to rounding.

                                                   - 10 ­
            TABLE 4 - OCC DEPARTMENT OF PUBLIC SAFETY

                 BUDGET MANAGEMENT AND CONTROL

                                            ACTUAL COSTS
                                APPROVED         (as of
            COST CATEGORY     GRANT BUDGET      3/31/12)

        Personnel Salary                 $139,047         $ 89,409

        Fringe Benefits                    65,421           36,670

        Travel                                 0             0

        Equipment                              0             0

        Supplies                               0             0

        Construction                           0             0

        Contract/Consultant                    0             0

        Other                                  0             0

        TOTAL DIRECT COSTS               204,468          126,079

        Indirect Costs                         0             0

        Match                                  0             0

        TOTAL                           $204,468         $126,079
      Source: COPS and the OCC’s Accounting Records

Grant Expenditures

      The 2009 COPS Hiring Recovery Program Grant Owner’s Manual
states that funding under this project is for the payment of approved full-
time entry-level salaries and fringe benefits over 3 years (for a total of
36 months of funding) for career law enforcement officer positions hired
and/or rehired on or after the official grant award start date. Additionally,
the grantee may not use CHRP funds for any costs that are not identified as
allowable in the Final Funding Memorandum. The OCC Department of
Public Safety’s approved grant budget is detailed in Table 4.

      To determine the accuracy and allowability of costs charged to the
grant, we examined the OCC Department of Public Safety’s grant
transactions. We determined that 100 percent of costs billed to the grant
were categorized according to approved budget categories and repetitive in
nature. OCC had incurred $126,079 in expenses as of March 31, 2012. We
reviewed $10,361 (14 percent) of the $72,038 in expenditures recorded as
of June 27, 2011. We found that the transactions we tested were properly
approved by a supervisor, properly classified in the grant accounting
records, and expenditures were adequately supported. In addition, we

                                      - 11 ­
confirmed that the salary level paid agreed with the contract in effect at the
time and was that of an entry-level officer.

Grant Reporting

      According to the 2009 COPS Hiring Recovery Program Grant Owner’s
Manual, award recipients are required to submit financial reports, program
progress reports, and Recovery Act reports. These reports describe the
status of the funds and the project, compare actual accomplishments to the
objectives, and report other pertinent information. We reviewed the federal
financial reports (FFR), progress reports, and Recovery Act reports
submitted by OCC to determine whether each report was submitted in a
timely and accurate manner.

Federal Financial Reports

      The 2009 COPS Hiring Recovery Program Grant Owner’s Manual
requires grantees to submit FFR’s no later than 30 days after the end of
each quarter. We reviewed the FFRs submitted as of March 31, 2012, and
found all nine were submitted within the required timeframe.

      We also reviewed all of the submitted FFRs for accuracy. We found
that the reports did not accurately reflect the grant-funded expenditures as
stated in the official accounting records. As shown in the following table,
project expenditures began in the reporting period ending December 31,
2009, and continued through March 31, 2012. However, FFR-reported
expenditures varied from costs recorded in the accounting records by as
much as $8,398. As previously noted, this error occurred because costs
were not timely posted to the grant accounting record, the OCC
Department of Public Safety grant manager was not the same person
responsible for requesting drawdowns and submitting the financial reports,
and he did not review the FFRs prior to their submission.




                                    - 12 ­
            TABLE 5 – OCC DEPARTMENT OF PUBLIC SAFETY

               FEDERAL FINANCIAL REPORT ACCURACY

    FSR        GRANTEE                       CUMULATIVE
                             QUARTELY                      CUMULATIVE
  PERIOD      QUARTERLY                     EXPENSES PER                CUMULATIVE
                             EXPENSES                       EXPENSES
   END          LEDGER                       ACCOUNTING                 DIFFERENCE
                              PER FSR                        PER FSR
   DATE        EXPENSES                        RECORDS

 12/31/09       $   0         $8,398            $   0       $8,398       $8,398
 03/31/10       1,727           0               1,727        8,398        6,671
 06/30/10      13,121         4,418            14,848       12,816       (2,032)
 09/30/10      12,545         14,578           27,393       27,393          0
 12/31/10      15,938         13,630           43,331       41,024       (2,308)
 03/31/11      14,130         16,391           57,462       57,415        (47)
 06/30/11      14,576         16,549           72,038       73,963        1,925
 09/30/11      17,974         16,048           90,012       90,012          0
 12/31/11      19,902         19,642          109,914       109,654       (260)
 03/31/12      16,166       Not yet due       126,079         N/A          N/A
Source: COPS and the OCC’s accounting records

       The OCC accountant informed us that she knew the COPS officer had
been hired and obtained the salary and fringe benefit payment information
directly from the OCC’s payroll data and reported this data on the
December 31, 2009, FFR rather than posting and obtaining the information
from the grant accounting records. The apparent overstatement of costs
incurred at the beginning of the grant period was due to an oversight that
the costs were not posted to the ledger as they were incurred. However,
this oversight was identified prior to our review and later corrected. The
accountant also identified instances where the payroll was prepared in
advance for long-term school closings and that these differences adjusted
themselves in the subsequent reporting period.

      During the exit conference, an OCC official stated the initial posting
delay occurred because only one person had the authority to set up the
grant accounting ledger and that upon set-up previously incurred costs
were vouchered over into the grant accounting record.

Program Progress Reports

      According to the 2009 COPS Hiring Recovery Program Grant Owner’s
Manual, grantees are required to submit progress reports no later than
30 days after the end of each quarter. We reviewed all 9 progress reports
submitted and found that while the initial progress report was submitted
3 days late, the progress reports were generally submitted early as shown
in Table 6.

                                          - 13 ­
            TABLE 6 – OCC DEPARTMENT OF PUBLIC SAFETY
                       PROGRESS REPORT HISTORY
           REPORT PERIOD                   DATE     DAYS
          FROM - TO DATES    DUE DATE    SUBMITTED   LATE
          10/01/09-12/31/09 6        01/30/2010         02/02/2010           3
          01/01/10-03/31/10          04/30/2010         04/05/2010           0
          04/01/10-06/30/10          07/30/2010         07/01/2010           0
          07/01/10-09/30/10          10/30/2010         10/04/2010           0
          10/01/10-12/31/10          01/30/2011         01/19/2011           0
          01/01/11-03/31/11          04/30/2011         04/60/2011           0
          04/01/11-06/30/11          07/30/2011         07/21/2011           0
          07/01/11-09/30/11          10/30/2011         10/07/2011           0
          10/01/11-12/31/11          01/30/2012         01/20/2012           0
          01/01/12-03/31/12          04/30/2012             N/A            N/A
      Source: COPS and the OCC’s Records

       The progress reports we reviewed appeared to be acceptable in form
and content; reports were completed in a survey format and rated a series
of program performance statements on a scale of 1 to 10 as required by
the COPS Office. We also interviewed OCC officers and confirmed that the
third shift coverage proposed in the grant application and detailed in the
Recovery Act reports was now occurring at two of five campus locations.
The reports we reviewed were completed fully and appeared relevant to the
performance of the grant-funded program.

Recovery Act Reports

       According to the 2009 COPS Hiring Recovery Program Grant Owner’s
Manual and COPS grant award special conditions, grantees are required to
submit Recovery Act reports within 10 days after the quarter ends. The
report should contain information on the award amount, expenditures, and
information about all projects utilizing Recovery Act monies. We reviewed
the Recovery Act reports submitted at the time of our fieldwork and found
all 10 had been submitted within the required timeframes. They also
accurately reflected the one newly hired grant-funded officer over the
OCC’s pre-award baseline number.



      6
       Because OCC Department of Public Safety did not accept the award until
November 11, 2009, no progress report was filed for the period ended September 30, 2009.

                                         - 14 ­
Compliance with Grant Requirements

      Excluding the reporting requirements, no specific performance
measurements were detailed in the award special conditions. We reviewed
the grant application and determined that OCC requested funds to hire one
new officer. Prior to receiving this award, the OCC Department of Public
Safety did not have 24-hour coverage at any of its campus locations and
with this grant, it hoped to mitigate that situation. This officer will help
support increased law enforcement coverage provided by the OCC
Department of Public Safety. According to the grant manager, there were
no changes in the objectives outlined in the grant application. We made
observations, reviewed documentation, and interviewed OCC Department
of Public Safety and Finance Department staff.

Community Policing

       In order to evaluate OCC’s community policing activities, we reviewed
its progress reports and interviewed the Director of Public Safety and other
OCC police officers. We found that the OCC Public Safety Department
actively engaged in community policing activities that involved both students
and staff. We observed that its website contained safety alerts as well as
tips on safety and how to protect your property. We also observed public
safety handouts covering a variety of topics in brochure stands on campus.
In addition, the COPS officer stated that she conducted seminars on Crime
Prevention and Personal Safety, performed new student orientations, sat on
Behavioral Assessment Review Teams aimed at identifying troubled
students, made presentations to Student Instructors (teacher assistants)
and Professors on building safety procedures, provided after hours escort
service to vehicles, and performed numerous other community policing
activities.

Supplanting

       According to the CHRP Grant Owner’s Manual, federal funds must be
used to supplement existing state and local funds for program activities and
must not replace those funds that have been appropriated for the same
purpose. To determine whether OCC used grant funds to supplement
existing local funds for program activities, we reviewed OCC Public Safety
Department budgets for years 2009 through 2012. While there were minor
fluctuations between the annual budgets, none of the budgets fell below the
budget from FY 2009, the initial year of the grant award. Based on our
review of the budgets, we found no indication that OCC used federal funds to
supplant existing funds.


                                    - 15 ­
Retention

       The 2009 COPS Hiring Recovery Program Grant Owner’s Manual
states the grantee will ensure that the increased officer staffing level under
the grant continues with state and/or local funds for a minimum of 12
months after the federal funding ends. Due to staff turnover in the COPS
position and resulting vacancy periods between the hiring of new staff, OCC
will not have spent at least $44,199 during the current award period, which
is scheduled to end June 30, 2012. In addition to their own funds, OCC
officials incorrectly believed that these unspent funds would be available to
them after the grant ended and that they would be able to utilize these
funds to help pay the COPS officers salary during the 12-month retention
period. Unless OCC obtains an extension of time in which to utilize these
funds, the $44,199 in unused award monies would revert to the funding
agency.

       As a result of our review, the OCC Director of Public Safety obtained a
no-cost grant extension of time through December 31, 2013, in order to
utilize these funds prior to the start of the retention period. Because the
award is not yet over, we have no recommendation to make at this time.
Since OCC had originally expected to use grant funds to retain the officer,
we believe that COPS should review the COPS retention plan policies with
OCC and require OCC to reaffirm and adhere to its plan to retain the officer
for 1 year after the grant ends. Additionally, because the retention
requirement is an essential element of the grant, we believe it would be
beneficial for both the OCC grant manager and grant accountant to attend
a grants management class.

Program Performance and Accomplishments

       As stated above, the purpose of the grant was to: (1) hire one
additional police officer and (2) begin 24-hour service at some campus
locations that were previously without coverage. We determined that the
OCC Department of Public Safety had not reduced the baseline number of
sworn law enforcement officers and that it had hired an additional entry-
level COPS funded officer and assigned a senior officer to work the third
shift at two campus locations that were previously without coverage.

View of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.


                                    - 16 ­
Recommendations

We recommend that COPS:

1.	   Ensure that OCC establishes procedures to ensure future data
      submitted on grant applications is accurate and correctly based on
      appropriate and supported information.

2.	   Require that the OCC’s Department of Public Safety establish
      procedures to ensure that all grant reimbursement requests are based
      only on actual expenditures recorded in the grant accounting ledgers.

3.	   Ensure that the OCC’s Department of Public Safety implements
      procedures to ensure that FFRs accurately report grant-related
      expenditures posted to the grant accounting records during the
      reporting period.

4.	   Review the officer retention process with OCC and have OCC reaffirm
      its intention to retain the officer for 1 year after the award ends and
      confirm that OCC will use local funds to pay the officer’s salary during
      that timeframe.

5.	   Require both the OCC grant manager and grant accountant to attend a
      grants management class.




                                    - 17 ­
                                                            APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable; supported; and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant; and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit concentrated on, but was not limited to, the inception of
the grant on July 1, 2009, through June 27, 2011. We also obtained
updated accounting ledgers as well as reports submitted through March 31,
2012. This was an audit of the CHRP grant number 2009-RK-WX-0454
awarded to the Oakland Community College (OCC) Department of Public
Safety, for $204,468. In conducting our audit, we reviewed federal
financial reports, progress reports, and Recovery Act reports and performed
testing of grant expenditures. Our testing was conducted by judgmentally
selecting a sample of expenditures, along with a review of internal controls
and procedures for the grant that we audited. A judgmental sampling
design was applied to obtain broad exposure to numerous facets of the
grant reviewed, such as dollar amounts, expenditure category, and risk.
This non-statistical sample design does not allow for projection of the test
results to all grant expenditures or internal controls and procedures. In
total, the grantee had drawn down $109,654 and expended $126,079 as of
March 31, 2012. We reviewed $10,361 (14 percent) of the $72,038 in
expenditures recorded as of June 27, 2011. Only payroll salary and fringe
benefits were charged to the grant.

       The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel costs; (4) budget management and
control; (5) matching funds; (6) property management; (7) indirect costs;
(8) program income; (9) federal financial, progress, and Recovery Act
reports; (10) grant requirements, including those related to community
policing, supplanting, and retention; (11) program performance and
                                    - 18 ­
accomplishments; and (12) monitoring of subgrantees and contractors. We
determined that matching funds, property management, indirect costs,
program income, and monitoring of subgrantees and contractors were not
applicable to this grant. We also reviewed the accuracy of information
reported in the grant application.

      OCC’s Department of Public Safety is a part of OCC, which was
included in a college-wide bi-annual audit for the fiscal year ended June 30,
2010. The results of this audit were reported in the Single Audit Report
accompanying the overall audit report. The Single Audit Report was
prepared under the provisions of Office of Management and Budget
Circular A-133 and Government Auditing Standards issued by the
Comptroller General of the United States. We reviewed the independent
auditor’s assessments, which disclosed no weaknesses or noncompliance
issues directly related to OCC’s Department of Public Safety. Additionally,
no other independent annual financial report was performed on the OCC’s
Department of Public Safety.

      We performed limited testing of source documents to assess the
timeliness and accuracy of the grant application, FFRs, reimbursement
requests, expenditures, progress reports, and Recovery Act reports;
evaluated performance to grant objectives; and reviewed the grant-related
internal controls over the financial management system. We also tested
payroll support as of June 27, 2011. However, we did not test the reliability
of the financial management system as a whole and reliance on computer-
based data was not significant to our objective.




                                    - 19 ­
                                                                                          APPENDIX II


                        AUDITEE RESPONSE




+        OAKLAND COMMUNITY COlLEGE.

                                                                                   Phone 2<48.3<11.2200
                                                                                     FOl 2.8.3.41.1099




June 27, 2012

Ms. C.rol Taraszka
US Department of Justke
Office of the Inspector General
Chicago Regional Audit OffICe
500 West Madison SII\-~I , Suite 112 1
Chicago, Illinois 6066 1·2590


IX... M s. Taraslb.

I am writing in rc~rd to the drall audit report from the Office of Community Oriented Policing s.e""iccs
(COPS) 2009 COPS Hiring Progmm Rn:oycry Grant aWBnkd to Oakland Community Collegt,
(kpanmtnl of Public Safety. We have rcvicv;ed 100 responded \0 the findings and rttOITImendations.
Per your mjucsl. . \lache<! you ",ill find OUT response and aelion plans. We have also forw3rded. copy
to the COPS office as directed.

If you   ~YC   quo.'Stions, please contact me at (248}34 1-2 131.

Sincerely,




Sharon Miller
Vice Chancellor of External AlTairs


CC; Communi ty Oriented Policing Services Office




G.orge A.    a... Admlnlilrollon CArlI...    2<180 Opdyl<e Rood • etoomfleld Hdh MJ .(830<1 ·2266




                                              - 20 ­
Recommendations

We recommend that COPS:


     1. Ensure that acc establishes procedures to ensure future data submitted on
        grant applications is accurate and corre ctly based on appropriate and
        supported Information.

     R espon .fe:

     We agree and haw established p~lllln!S to ensure 1/101 datu suhmilled all gram oppliea/jom
     is accurate and correcily ho.fed all approprillle and supportell informOlian.

     Time/rame: Completed

     2. Require that the acc's Department of Public Safety esta blish procedures to
        ensure that ali grant r eimbursement requests are based only on actual
        expenditures recorded In the grant accounting ledgers.

     Responu

     We agree ond IIm't 1:!~·tablishe(1 procedllre.~ to ensure 1/1(11 011 grom reilllbllr$(!1II(!1I1 reqlles/J are
     bused ollly all oclllal expfmditures recordt'd in the gram ocrollllting ledgers.

     Timefrome: COn/pINed

     3. Ensure that the acc's Department of Public Safety Implements procedures
        to ensure that FFRs accurately report grant-related expenditures posted to
        the grant accounting r ecords during the reporting period.

     R e!/ponse:

     We ogree ond hm>e estahlislN!d procedures to ensure that FF/u occllralefy reporl gram.re/a/ed
     expendill/res postel/IO lhe gran[ accounting records during the reporting period.

     Time frame: Compleled


    4. Review the officer retention process with ace and have ace reaffir m Its
       Intention to ret ain the offi cer for 1 year after the award ends and confirm
       that acc will use local fu nds to pay the officer's salary during that
       timeframe.



     We agree and the College is commirled 10 retain the officer fKJ$ilionfunded through the COPS
     grant for a period ofm/east one yellr ajier fh e grant e"ds and will rise local r('SUI/rees IU fXlY the
     officer·s salary during the repurting period.




                                                - 21 ­
        Time/rome: To be compleled OIIC year /rom Ihl! comp/l!ljon ofthe grant.

        S. Require both the OCC grant manager and grant accountant to attend a
           grants management class.

        Respollse:
        We agree and arc develop/ng Inler/wl grunt training/ r gralll managers. The College '.' grant
                                                               o
        oCCOl/nlt"" has access to resources ol/Ilining govern/l/flll reglilation and the in/ormation wi({
        be shared wilh the grant /I/(II/ager.

        Time/rame: Training 1 be (Iel'eloped Q (Iep/oyec/ in Fall 2012/01' gram manager.,.
                                0                   lld
                  will n..view reg/llations by AII1:.'1ISI 30. 2012 and pl/r.w e addifioll(ll iraining (I.f
        Accol/Illam
        neeclccl.




j
J




    r




                                                 - 22 ­
                                                                                                          APPENDIX III


             U.S. DEPARTMENT OF JUSTICE RESPONSE

                   U.S.   OEPAH.:rMENT OF J UST I Cr.
                   OFFICE OF COM MU N I TY OR I El'TEO POU C I:"oIC SE R V I CE S
                   G rant   pc::rations Di rec torat e / Audi t Liaison Divi s ion
                                                                                                COPS
                   J 45 N Street. N . E .. \'(/ash i ngc OJ) , DC 2 0530



Via E lectrollic and U. S . Mail

To :              Carol S . Taraszka
                  Regional Audit Manage r
                  Office o f th e Inspector Gen e ral
                  C hi cago R egional Audit O ffic e

F ro m:           D o na ld J . La n go        f(,"! h
                  Management Ana lyst/Audi t Liai son
                  A udit Lia ison Di v is io n

Date :            July 10, 20 12

Subj ect :        R espo n se to D ra ft Audit R epo rt to r the Oakl a nd Community College DeparlIne nt
                  of Public Sa fety in Po ntinc, Mi c hi ga n

Thi s m e m o randum is in respo n se to yo ur Jun e 8 , 201 2. draft a udit report for Oak la nd
Com munit y College D e p artme nt of P ub lie Safet y in Po nti ac, Mic h iga n . For ease o f re v iew, eac h
a udit recom m e nda t ion is slated in bold a nd underl ine d , followed b y CO PS · re spons e to the
recom.llle ndation .

Rec;::olnmendation 1: Ensure that DeC estnblishcs proce dures to ens ure future data
submitted on grant apnlications is accurate and correctly baset.' on approprinte and
supported information.

The CO PS Office con c u rs w ith the recomm endati on.

Dis cuss ion and Plunnc d Action:
The g ra ntee agreed w ith thi s recommenda tion a nd adv ised tha t it ha s e s tablis h e d procedure s.
CO PS w ill rc v iew the g ra ntec ' s procedures to ensure they adequ ately add ress the
recomme ndati o n a nd w ill s ubrnit to th e O IG tor review and c los urc .

 Requ est:
 Based o n th e di scuss io n a nd planned ac ti o n , CO P S reque st s re so luti o n o f R ecomnle nd at ion I.


 Rccoml11 c ndation 2: Require that th e DCC ' s D e parhnent of Public Safety establish
 nrocedures to ensure that all grant reimbursc nlcnt request s are based only o n actual
 expcnditun recorded in the grant accounting ledgers.
             ~s


 The COP S Offi ce co n c urs w ith thc reco mme nd a ti o n.




 ADVANCING PUBLI C S AF ETY THR.OUG H                                                OMMUN IT Y POL I C ING




                                                            - 23 ­
Carol S. Taraszka, Regional Audit Manager
Ju ly 10,201 2
Page 2


Discussion and Planned Action:
The grantee agreed with this recomme ndation a nd advised that it has esta blished procedures.
COPS w ill review the grantee's procedures to e nsure they adequately add ress the
recommendation and will submi t to the 0 10 fo r review and closure.

Request:
Based on the discllssion and planned action, COPS requests resolution of Recommendation 2.


Recommcndation 3: Ensure that the oee's Department of Public Safety implements
procedures to ensure that "FRs accurately report grant-related expcnditures posted to the
grant accounting records during the reporting period.

T he COPS Offi ce conc urs w ith the recommendation .

Discussion and Planned Action:
T he gra ntee agreed w ith this recommendation and advised that it has established procedures.
COPS will review the grantee's proccdures to ensure they adeq uately address the
recomme ndation a nd will submit to the 0 10 for review a nd closure.

Request:
Based on the discussion and pla nned action, COPS requests resol ution of Recommendation 3.


Recolllmendation 4: Review the officer ret ention process with oee and ha ve oee
reaffirm its intention to retain the offieer for 1 vear after the award ends and confirm that
oee will use local fund s to pay the officer's salary tluring that timeframe.
T he CO PS Office concurs with the recommendation.

Discussion and Planned Action:
The grantee concurred with th is recommendation and advised that it will retain the grant-fund ed
position for at least one year and will fund that position with local resources . CO PS wi ll ensure that
the grantee rea rli rms its intention to retain the orlicer fo r one yea r after the award ends, and will
eon fi rm that the grantee will use loca l fund s to pay th e o ffi cer's sa lary during that time frame . Cops
will prov ided thi s confi rmation the OIG for review and closure.

 Request:
 Based on the disc ussion and platmed action, COPS requests resolution of Recommendati on 4.




 A DVANC I N G PU BLIC SA FETY THROUG H COMMUN IT Y PO LI C I NG
                                                    .,It




                                                             - 24 ­
Carol S. Taraszka, Regiona l Audit Manager
July 10,2012
Page 3




Recommendation 5: Require both the OCC grant manager and grant accountant to attend
a grants managem ent class.

The COPS Office concurs that additional grant management training may be bencficia l to the
grantee.

IJiscussion and Planned Action:
The gran tee agreed with the recommendation and is deve lopin g interna l grant training, to be
deployed in the fall of20 12. COPS will review the training material s developed by the grantee to
ensurc their adequacy and submit to the OIG for review and closure. In addition , COPS will
obtain ccrti fications from the grantee that the OCC grant manager and grant accountant have
completed this training, and w ill provide thi s certification to the 0 1 .
                                                                         0

Reqnest:
Based on the discussion and planned action, COPS req uests resolution of Recommendation 5.


COPS would like to thank you for the opportunity to review and respond to the draft audit report.
If you have any questions, please contact me at 202-6 16-92 15, or you may email at
dona ld.lango@usdoj.gov.




 ADVANCING PUBLIC SAFETY THROUG H COMMUNITY PO LIC I NG
                                                •



                                                        - 25 ­
                                                           APPENDIX IV

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Office of
Community Oriented Policing Services (COPS) and the Oakland Community
College (OCC). OCC’s response is incorporated in Appendix II of this final
report, and COPS’ response is incorporated in Appendix III. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number

1.	   Resolved. Both OCC and COPS concurred with our recommendation
      to ensure that OCC establishes procedures to ensure future data
      submitted on grant applications is accurate and correctly based on
      appropriate and supported information. COPS stated that it will review
      OCC’s written procedures, to ensure that future data submitted on
      grant applications is accurate and correctly based on appropriate and
      supported information.

      This recommendation can be closed when we receive a copy of the
      procedures implemented to ensure that future data submitted on grant
      applications is accurate and correctly based on appropriate and
      supported information.

2.	   Resolved. Both OCC and COPS concurred with our recommendation
      to ensure that OCC implements procedures to ensure that grant
      reimbursement requests are based on actual expenditures as recorded
      in the grant accounting records. COPS stated that it will review OCC’s
      written procedures, to ensure that grant reimbursement requests are
      based on actual expenditures as recorded in the grant accounting
      records.

      This recommendation can be closed when we receive a copy of the
      procedures implemented by OCC, once reviewed by COPS, to ensure
      that the OCC’s grant reimbursement requests are based on actual
      expenditures as recorded in the grant accounting records.

3.	   Resolved. Both OCC and COPS concurred with our recommendation
      to ensure that OCC implements procedures to ensure that FFRs
      accurately report grant-related expenditures posted to the grant
      accounting records during the reporting period. COPS stated that it
      will review OCC’s written procedures, to ensure that FFRs accurately
                                   - 26 ­
      report grant-related expenditures posted to the grant accounting
      records during the reporting period.

      This recommendation can be closed when we receive a copy of the
      procedures implemented to ensure that FFRs accurately report grant-
      related expenditures posted to the grant accounting records during the
      reporting period.

4.	   Resolved. Both OCC and COPS concurred with our recommendation
      to ensure that OCC implements procedures to ensure that OCC
      reaffirm its intention to retain the officer for 1 year after the award
      ends and confirms that OCC will use local funds to pay the officer’s
      salary during that timeframe. COPS stated that it will review OCC’s
      written procedures, to ensure that grant reimbursement requests are
      based on actual expenditures as recorded in the grant accounting
      records.

      This recommendation can be closed when we receive COPS
      confirmation that OCC has reaffirmed its intention to retain the officer
      for 1 year after the award ends and confirms that OCC will use local
      funds to pay the officer’s salary during that timeframe.

5.	   Resolved. Both OCC and COPS concurred with our recommendation
      to ensure that OCC’s grant manager and grant accountant attend a
      grants management class. OCC stated it is developing internal grant
      training to be deployed in the fall of 2012. COPS stated it will review
      the training materials developed by the grantee to ensure their
      adequacy and submit a copy to the OIG for review. In addition, COPS
      will obtain certifications from OCC that the grant manager and
      accountant have completed this training.

      This recommendation can be closed when we receive a copy of the
      training materials developed by OCC as well as certifications that
      OCC’s grant manager and grant accountant completed a grants
      management class.




                                    - 27 ­
